WAIVE

EU

SEP 13 21121
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
No.

21-353

Ethan Hoggatt, et al.

Ilstate Insurance, et al.
V.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Andy Dyson, Individually and in any Corporate Capacity, and Suzanne Hand

Please check the appropriate box:

0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:
Date:

[9/13/21

(Type or print) Name Harry Case Embry
Mr.

0

Cl Ms.

Firm

McAngus, Goudelock and Courie

Address

119 North 9th Street

City & State

Oxford, MS

Phone

662-281-7829

Mrs.

0

Miss

Zip 38655
Email case.embry@mgclaw.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Victoria Johnson Hoggatt, Esq., attorney for Petitioners

cc:

Charles Cowan, Esq., attorney for Allstate Property and Casualty Insurance Company

mgc

INSURANCE
DEFENSE

Reply To
H. CASE EMBRY
Direct Dial: (662) 281-7829
case.embry@mgclaw.com

September 13, 2021
VIA CERTIFIED MAIL
Supreme Court
Attn: Clerk's Office
1 First Street, NE
Washington, D.C. 20543

RE:

Waiver/Supreme Court of the United States
Ethan Hoggatt, et al. vs. Allstate Insurance, et al.
No.:
21-353

Dear Sir or Madam:
Please find enclosed the original, signed Waiver in the above-referenced matter.
Upon your receipt of the enclosed, please file the same and return a stamped "filed"
copy to my attention in the pre-posted return envelope enclosed.
Should you have any questions regarding the enclosed or this request, please do
not hesitate to contact me.
Very truly yours,

H. Case Embry
HCE/_cep
Enclosures
cc w/Encl.: Victoria Johnson Hoggatt, Esq. (via email only)
Charles E. Cowan, Esq. (via email only)

McANGUS GOUDELOCK & COURIE LLC

RECEIVED
SEP 2 3 2021
OFFICE OF THE CLARK
SUPREME COURT U.S.

119 NORTH 9TH STREET

662.281.7871 PHONE

OXFORD, MS 38655

662.259.8460 FAX
WWW.MGCLAW.COM

